AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
Case Nos. 19-201
Micah Jessop, et al.,
Petitioners,
V.
City of Fresno, et al.,
Respondents.

Jennifer Sturwold, hereby declares that: I am a citizen of the United States
and a resident of or employed in the County of Los Angeles, State of California. I
am over the age of 18 and not a party to the within action; my business address is
11500 West Olympic Boulevard, Suite 400, Los Angeles, California 90064-1830.
On March 17, 2020, I served the foregoing document described as
RESPONDENTS’ OBJECTION TO MOTION FOR LEAVE TO FILE AND
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS by depositing one copy of same, addressed to
each individual respectively, and enclosed in a fully pre-paid, properly addressed
wrapper, in an official depository maintained by the United States Postal
Service, by 1st Class Mail, in the above-captioned matter addressed as follows:
SEE ATTACHED SERVICE LIST
That on the same date as above, I sent to this Court ten copies of the within
RESPONDENTS’ OBJECTION TO MOTION FOR LEAVE TO FILE AND
BRIEF OF THE NEW CIVIL LIBERTIES ALLIANCE AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS through Federal Express Standard
Overnight Delivery, postage prepaid, in the above-captioned addressed as follows:
United States Department of Justice
950 Pennsylvania A venue, NW
Washington, DC 20530-0001
In addition, the objection has been filed electronically via Court's electronic
filing system. That I made this service for Daniel P. Barer of Pollak, Vida and
Barer, Attorneys for Respondent’s herein, and that to the best of my knowledge all
persons required to be served in said action have been served. That this declaration
is made pursuant to United States Supreme Court Rule 29.5(c).
I declare under penalty of perjury that the above is true and correct.
Executed on March 17, 2020, in Los Angeles, California.
/s/ Jennifer Sturwold
________________________
Jennifer Sturwold

Service List
Jessop, et al. v. City of Fresno, et al.
Case No. 17-16756
Harriet M. Hageman
New Civil Liberties Alliance
1225 19th Street NW, Suite 450
Washington, DC 20036
harriet.hageman@ncla.onmicrosoft.com
Attorneys for NEW CIVIL LIBERTIES ALLIANCE
Jay Remington Schweikert
The Cato Institute
1000 Massachusetts Ave. NW
Washington, DC 20001
jschweikert@cato.org
Attorneys for CATO INSTITUTE AND AMERICANS FOR PROSPERITY
FOUNDATION
Peter J. Ferguson, Esq.
Allen Christiansen, Esq.
Law Offices of Ferguson, Praet & Sherman, APC
1631 E. 18th Street
Santa Ana, CA 92705
Telephone: (714) 953-5300
Facsimile: (714) 953-1143
Email: Peterferg@aol.com
Email: achristiansen@law4cops.com
Attorneys for Defendants-Appellees CITY OF FRESNO; CURT CHASTAIN;
and TOMAS CANTU
Kevin M. Osterberg, Esq.
Haight, Brown & Bonesteel, LLP
3880 Lemon Street, Suite 410
Riverside, CA 92501
Telephone: (951) 341-8300
Facsimile: (951) 341-8309
Email: kosterberg@hbblaw.com
Attorneys for Defendant-Appellee former Fresno police officer DERIK KUMAGAI

Darrell J. York, Esq.
Sarah L. Garvey, Esq.
Law Offices of York & Garvey
137 N. Larchmont Blvd, Suite 506
Los Angeles, CA 90004
Telephone: (866) 908-2121
Facsimile: (877) 221-3306
Email: djylaw@gmail.com
Email: sarahgarvey@yahoo.com
Kevin G. Little, Esq.
Law Office of Kevin G. Little
Post Office Box 8656
Fresno, CA 93747
Telephone: (559) 342-5800
Facsimile: (559) 242-2400
Email: kevin@kevinglittle.com
kevinglittle@yahoo.com and
lawofficekevinglittle@gmail.com
Attorneys for Plaintiffs-Appellants MICAH JESSOP and BRITTAN ASHJIAN
Neal Kumar Katyal
Mitchell Reich
Senior Associate
Hogan Lovells US LLP
Columbia Square
555 Thirteenth Street, NW
Washington, DC 20004
Tel:
(202) 637-5600
Direct: (202) 637-5833
Fax
(202) 637-5910
Email: neal.katyal@hoganlovells.com
Email: mitchell.reich@hoganlovells.com
www.hoganlovells.com
Associated Counsel for Plaintiffs-Appellants Micah Jessop and Brittan Ashjian

